TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Affordable Care Act: Tracking of
                   Health Insurance Reform Implementation
                        Fund Costs Could Be Improved



                                      September 18, 2013

                              Reference Number: 2013-13-115




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


AFFORDABLE CARE ACT: TRACKING                        TIGTA also found that the IRS did not track all
OF HEALTH INSURANCE REFORM                           costs associated with implementation of the
IMPLEMENTATION FUND COSTS                            ACA including costs not charged to the HIRIF.
COULD BE IMPROVED                                    Specifically, the IRS did not account for or
                                                     attempt to quantify approximately $67 million of
                                                     indirect ACA costs incurred for Fiscal
Highlights                                           Years 2010 through 2012. Indirect costs
                                                     include, for example, providing employees with
                                                     workspace and information technology support.
Final Report issued on
September 18, 2013                                   The IRS established a methodology to track
                                                     ACA costs in its accounting records. However,
Highlights of Reference Number: 2013-13-115          the IRS accounted for only direct costs, such as
to the Internal Revenue Service Chief Financial      labor and contract costs, because it did not
Officer.                                             believe that indirect costs should be recovered
                                                     from the HIRIF. The IRS’s use of HIRIF funding
IMPACT ON TAXPAYERS                                  only for ACA direct costs is consistent with the
The IRS has a significant role in implementation     HIRIF requirements.
of the Affordable Care Act (ACA) with                However, by not also identifying and tracking
responsibility to implement and oversee the          indirect costs, the IRS lacks complete
numerous tax law changes. From Fiscal                information regarding the full cost of ACA
Year 2010 to Fiscal Year 2012, the IRS’s             implementation. This lack of complete
reported cost of $488 million to implement the       information on ACA implementation costs limits
ACA was paid for by the Health Insurance             the IRS’s ability to accurately report to
Reform Implementation Fund (HIRIF)                   stakeholders the total resources it applied to the
administered by the Department of Health and         ACA implementation and fully estimate the
Human Services. Because implementation of            resources needed in the future for this effort.
the ACA remains an ongoing effort, it is critical
that the IRS has complete and reliable               WHAT TIGTA RECOMMENDED
information regarding all costs associated with
                                                     TIGTA recommended that the Chief Financial
the implementation in order to effectively
                                                     Officer: 1) ensure that steps are taken to help
manage taxpayer funds devoted to this effort.
                                                     identify potential errors in direct labor costs
WHY TIGTA DID THE AUDIT                              associated with the ACA implementation;
                                                     2) develop documentation requirements for
This audit was initiated to determine whether the    direct labor costs reported as attributable to ACA
IRS has an adequate process to accurately            implementation; and 3) revise the methodology
account for and report selected ACA                  used when reporting the total cost of the ACA
implementation costs charged to the HIRIF.           implementation.
WHAT TIGTA FOUND                                     In their response, IRS management agreed with
                                                     our recommendations. The IRS plans to
TIGTA identified several opportunities where the
                                                     redistribute guidance on the proper accounting
IRS could improve the process it uses to
                                                     for ACA activities and instructions on
account for and report costs associated with the
                                                     maintaining proper documentation. In future
implementation of the ACA. For example,
                                                     reporting on the ACA implementation, the IRS
controls over the tracking of direct labor charges
                                                     plans to use full costs when appropriate.
associated with the HIRIF could be improved.
TIGTA found that costs charged to HIRIF
funding related to direct labor were sometimes
inaccurate and not always substantiated by
reliable supporting documentation.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 18, 2013


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Affordable Care Act: Tracking of Health
                             Insurance Reform Implementation Fund Costs Could Be Improved
                             (Audit # 201210315)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) had an adequate process to accurately account for and report selected Affordable Care Act
 implementation costs charged to the Health Insurance Reform Implementation Fund. This
 review is included in our Fiscal Year 2013 Annual Audit Plan and addresses the major
 management challenge of Implementing the Affordable Care Act and Other Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).
                                Affordable Care Act: Tracking of Health Insurance
                              Reform Implementation Fund Costs Could Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Some Affordable Care Act Implementation Costs Were
          Inaccurate or Not Tracked and Supporting Documentation
          Was Not Always Maintained ........................................................................ Page 3
                    Recommendations 1 through 3:........................................... Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Outcome Measures............................................................... Page 12
          Appendix V – Management’s Response to the Draft Report ....................... Page 14
          Affordable Care Act: Tracking of Health Insurance
        Reform Implementation Fund Costs Could Be Improved




                   Abbreviations

ACA          Affordable Care Act
FTE          Full-Time Equivalent
FY           Fiscal Year
HHS          Department of Health and Human Services
HIRIF        Health Insurance Reform Implementation Fund
IRS          Internal Revenue Service
SB/SE        Small Business/Self-Employed
                           Affordable Care Act: Tracking of Health Insurance
                         Reform Implementation Fund Costs Could Be Improved




                                            Background

The Patient Protection and Affordable Care Act of 2010 and the Health Care and Education
Reconciliation Act of 2010 (collectively referred to as the Affordable Care Act (ACA))1 contain
an extensive array of tax law changes that will present many challenges for the Internal Revenue
Service (IRS) in the coming years. The ACA provisions provide incentives and tax breaks to
individuals and small businesses to offset health care expenses. They also impose penalties,
administered through the tax code, for individuals and businesses that do not obtain health care
coverage for themselves or their employees.
While the Department of Health and Human Services (HHS) will take the lead in developing the
policy provisions of the ACA, the IRS will administer the law’s numerous tax provisions. The
IRS estimates that the ACA includes approximately 50 tax provisions, at least eight of which will
require the IRS to build new computer applications and business processes that do not exist
within the current tax administration system.
The costs associated with implementation of new tax law provisions are normally funded by the
IRS via its operating budget, and any additional funds needed are requested in the annual
appropriations cycle. However, the ACA legislation also established a $1 billion Health
Insurance Reform Implementation Fund (HIRIF) to pay for the Federal administrative expenses
to carry out the ACA. The fund enabled agencies, including the IRS, to begin implementation
immediately. The HIRIF is managed by the HHS. The HHS established an allocation account to
make defined amounts available to the IRS and other selected agencies. The agency receiving
the allocation may obligate up to the amount included in its allocation account. Agencies must
ensure that their obligations are used only for “Federal administrative expenses to carry out” the
implementation of the ACA. For example, the HHS reported that it used these funds for
expenditures on salaries, benefits, and contract expenses related to the implementation of the
ACA.
The Government Accountability Office General Counsel2 concluded, in its assessment of the
availability of the fund, that amounts in the fund are available to pay Federal administrative
expenses to finance the immediate implementation of the ACA. The Government Accountability
Office also noted that the fund, as created in the authorization of the ACA, enabled agencies to
begin implementation immediately and not wait for the regular appropriations cycle. The
Government Accountability Office further noted that the method in which the fund was


1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered section of the U.S. Code), as amended
by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
2
  Government Accountability Office, B-321823, Department of Health and Human Services—Administrative
Expenses (Dec. 6, 2011).
                                                                                                           Page 1
                           Affordable Care Act: Tracking of Health Insurance
                         Reform Implementation Fund Costs Could Be Improved



established signified that Congress did not expect the fund to satisfy an ongoing purpose, but to
satisfy a more immediate need.
Figure 1 shows that the IRS reported that a total of $488 million was paid from the HIRIF from
Fiscal Year (FY) 2010 to FY 2012 to implement the ACA.
                       Figure 1: IRS HIRIF ACA Implementation Costs
                                                 Costs           Full-Time Equivalents
                            FYs              (in Millions)               (FTE)3

                           2010                  $ 21                         31
                           2011                  $168                        577
                           2012                  $299                        664
                          Total                  $488                      1,272
                    Source: IRS FY 2014 congressional budget submission.

The IRS informed us that it does not expect any additional funding from the HIRIF after
FY 2012.
This review was performed at the offices of the Chief Financial Officer, Small Business/
Self-Employed (SB/SE) Division, and Chief Technology Officer in Washington, D.C., during the
period July 2012 through April 2013. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




3
 An FTE is a measure of labor hours in which one FTE is equal to eight hours multiplied by the number of
compensable days in a particular fiscal year.

                                                                                                           Page 2
                              Affordable Care Act: Tracking of Health Insurance
                            Reform Implementation Fund Costs Could Be Improved




                                         Results of Review

Our review identified several opportunities in which the IRS could improve the process it uses to
account for and report costs associated with the implementation of the ACA. Although the IRS
stopped receiving funds from the HIRIF at the end of FY 2012, implementation of the ACA
remains an ongoing effort, and all FY 2013 and beyond implementation efforts will need to be
funded solely from the IRS’s operating budget. It therefore remains critical that the IRS has
complete and reliable information regarding all costs associated with the implementation in order
to effectively manage taxpayer funds devoted to this effort. The IRS informed us that it
requested $360 million and 859 FTEs for FY 2013 to continue implementation of the ACA.
However, the IRS did not receive this requested amount for FY 2013.

Some Affordable Care Act Implementation Costs Were Inaccurate or
Not Tracked and Supporting Documentation Was Not Always
Maintained
Our review found that the tracking of costs related to the ACA implementation could be
improved. Specifically, we found that costs charged to HIRIF funding relating to direct labor
were sometimes inaccurate and not always substantiated by reliable supporting documentation.
We also found that the IRS did not track all costs associated with implementation of the ACA,
including costs not applied to the HIRIF. Specifically, the IRS did not account for or attempt to
quantify approximately $67 million of indirect ACA costs incurred for FYs 2010 through 2012.
Indirect costs include, for example, providing employees with workspace and information
technology support.

Charges to the HIRIF related to direct labor were sometimes inaccurate and not
always substantiated by reliable supporting documentation
Our review found that controls over the tracking of direct labor charges associated with the
implementation of the ACA could be improved. Specifically, we identified 38 IRS employees in
two judgmentally4 selected business units whose travel was charged to the HIRIF in FY 2012,
but no portion of their salary and related benefits was charged to the HIRIF. The IRS informed
us that its subsequent research indicated that the 38 employees did in fact work a total of at least
1,441 hours on the ACA implementation. This uncharged direct labor was not identified because
the IRS did not periodically compare employees whose travel was charged to the HIRIF and



4
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 3
                           Affordable Care Act: Tracking of Health Insurance
                         Reform Implementation Fund Costs Could Be Improved



employees whose direct labor was charged to the HIRIF to help identify potential accounting
errors.
Our review also found an unreconciled difference of 6,947 hours or approximately 3.3 FTEs
between total FY 2012 direct labor charged to the HIRIF and the summary level supporting
documentation maintained by one of the two IRS business units we sampled. The hours charged
to the HIRIF exceeded the supporting documentation. We further found that all FY 2012 time
reports detailing hours spent daily on the ACA implementation were not maintained for
17 (85 percent) of 20 IRS employees in one of the two business units that we sampled with direct
labor charges to the HIRIF. The responsible business unit informed us that, in general, it
maintains time reports for only a limited period and that the time reports we requested, relating
to early FY 2012, were unavailable. As a result, we were unable to review 274 (16 percent) of
the 1,740 hours worked by these 17 employees. The unsupported labor charges we identified
were caused by the lack of detailed procedures specifying the minimum documentation that must
be maintained by IRS business units regarding employee labor charges to the HIRIF and the
need to periodically reconcile direct labor charged to the HIRIF and the summary supporting
documentation. In FY 2012, direct labor charged to the HIRIF by the IRS totaled 664 FTEs.
The overall reliability of the IRS’s labor charges to the HIRIF was also affected by the lack of
detailed staffing estimates for each ACA provision. In June 2012, we reported5 that a detailed
analysis of each provision to determine the amount of staffing necessary by IRS functional area
to implement each provision was not always performed. In response to this report, the IRS
advised us that it was in the process of developing more detailed staffing estimates for FY 2013.
The development of more detailed staffing estimates would also assist the IRS in the future by
enabling it to periodically validate that it is correctly accounting for ACA direct labor funded
from its operating budget by providing an ongoing comparison of expected and actual results.

The IRS did not track all costs associated with the implementation of the ACA
Federal financial accounting standards require the identification of both direct and indirect costs
to accurately measure and manage the full cost of Federal programs. Direct costs include, for
example, the salaries of staff working directly on the effort and the cost of work done by
contractors supporting a specific effort. Indirect costs include, for example, rent,
communications, and information technology support.
We found that the IRS did not track all costs associated with implementation of the ACA,
including costs not applied to the HIRIF. The IRS did establish a methodology to track ACA
costs in its accounting records. However, the IRS informed us that it accounted for only direct



5
  Treasury Inspector General for Tax Administration, Ref. No. 2012-43-064, Affordable Care Act: Planning Efforts
for the Tax Provisions of the Patient Protection and Affordable Care Act Appear Adequate; However, the Resource
Estimation Process Needs Improvement (June 2012).
                                                                                                        Page 4
                        Affordable Care Act: Tracking of Health Insurance
                      Reform Implementation Fund Costs Could Be Improved



costs, such as labor and contract costs, because it did not believe indirect costs should be
recovered from the HIRIF.
The IRS’s use of HIRIF funding for ACA direct labor and contract costs is consistent with the
requirement that the HIRIF be used for Federal administrative expenses necessary to carry out
the requirements of the ACA. However, by not identifying and tracking indirect costs, the IRS
lacks complete information regarding the full cost of ACA implementation. This lack of
complete information on ACA implementation costs limits the IRS’s ability to accurately report
to stakeholders the total resources it applied to ACA implementation and fully estimate the
resources needed in the future for this effort. We believe that had the IRS identified these costs,
it would have been better able to report to stakeholders the full impact of the ACA
implementation on its resources.
In FYs 2010 through 2012, the IRS received funds from the HIRIF for annual direct labor and
related benefit costs totaling $162 million cumulatively. However, our review of the IRS’s
records indicated that it did not account for or attempt to quantify any indirect costs during
FYs 2010 through 2012. Based on the IRS’s own internal cost accounting guidelines, the
indirect costs associated with these direct labor charges likely totaled approximately
$67 million for FYs 2010 through 2012. The excluded indirect costs relate to providing
employees with the workspace, support, and ongoing access to the full range of tools and
technology support necessary for the performance of their jobs. For example, while the IRS may
have been able to place most new employees hired for the ACA in existing leased space, it still
had to pay rent on this space, could not use the space for other purposes, and could not consider
the space for inclusion in its ongoing space reduction efforts.

Implementation of the ACA remains an ongoing effort
In FY 2012, the IRS received $299 million from the HIRIF to pay for the implementation of the
ACA. This funding was in addition to the funding received by the IRS based on its enacted
budget. The IRS informed us that it does not anticipate receiving any funding from the HIRIF
after FY 2012. The IRS also informed us that its FY 2013 spending plan includes $360 million
to implement the ACA. Because the IRS will not be reimbursed from the HIRIF for FY 2013, all
FY 2013 ACA spending is funded from the IRS’s operating budget.
The IRS’s FY 2014 budget request includes additional funding of $440 million to fund
1,954 FTEs for continued efforts related to the implementation of the ACA. The largest
component of this increase is $306 million for the implementation of the information technology
changes needed to deliver tax credits and other requirements. It therefore continues to remain
critical that the IRS develop complete and reliable estimates for all costs associated with the
implementation of the ACA and accurately track and report on actual costs devoted to this effort.




                                                                                               Page 5
                       Affordable Care Act: Tracking of Health Insurance
                     Reform Implementation Fund Costs Could Be Improved



Recommendations
The Chief Financial Officer should:
Recommendation 1: When tracking ACA implementation costs, ensure that a periodic
comparison is made between employees with travel costs associated with the ACA
implementation and employees with direct labor costs associated with the ACA implementation
to help identify potential errors requiring further review.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Financial Officer will redistribute guidance on the proper accounting for ACA activities
       and communicate the importance of adhering to guidelines in the established procedures.
Recommendation 2: Establish procedures regarding the minimum documentation that must
be maintained by IRS business units to substantiate direct labor tracked as expended on the ACA
implementation. The procedures should address the need to prepare and retain reconciled
summary documentation that lists employees who worked on ACA implementation and total
hours worked, as well as supporting documentation such as time reports detailing hours spent
daily on ACA activities by each employee.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Financial Officer will redistribute instructions on maintaining proper documentation for
       ACA activities and communicate the importance of adhering to guidelines in the
       established procedures.
Recommendation 3: Revise the methodology used when reporting the total cost of the ACA
implementation to include a comprehensive allocation of the costs of providing employees
responsible for implementing the ACA with workspace, support, and access to the full range of
tools and technology necessary to support the IRS’s ACA implementation.
       Management’s Response: The IRS agreed with this recommendation. In future
       reporting on the ACA implementation, the IRS will use full costs when appropriate.




                                                                                          Page 6
                       Affordable Care Act: Tracking of Health Insurance
                     Reform Implementation Fund Costs Could Be Improved



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS had an adequate process to accurately
account for and report selected ACA implementation costs charged to the HIRIF. To accomplish
our objective, we:
I.     Determined the procedures used by the IRS to identify, calculate, and record ACA
       expenses.
       A. Interviewed responsible Chief Financial Officer and business unit personnel
          regarding the process followed to identify, calculate, record, and report ACA
          administrative expenses.
       B. Obtained any guidance issued by the HHS regarding allowable ACA administrative
          expenses, expense documentation requirements, and spending reporting requirements.
       C. Reviewed the procedures and associated internal controls implemented by the IRS to
          identify, calculate, record, and report ACA administrative expenses.
II.    Determined whether the IRS’s current methodology for capturing ACA administrative
       expenses is reasonable based on cost accounting policies/requirements/regulations and is
       adequately documented.
       A. Evaluated whether policies established by the IRS, if implemented as described, can
          be relied upon to produce reasonably accurate, current, and reliable data regarding
          ACA administrative expenses.
       B. Interviewed key coordinators for business units that incur ACA administrative
          expenses to determine whether the methodology used to calculate ACA
          administrative expenses is consistent and adheres to policies and procedures
          implemented by the Chief Financial Officer.
       C. Evaluated business procedures for identifying and charging ACA administrative
          expenses to the HIRIF.
III.   Determined whether ACA administrative expenses related to labor, travel, and indirect
       costs are accurately calculated based on the established costing methodology and
       substantiated by reliable supporting documentation.




                                                                                          Page 7
                              Affordable Care Act: Tracking of Health Insurance
                            Reform Implementation Fund Costs Could Be Improved



           A. Judgmentally1 selected the two largest business units with direct labor costs from the
              IRS’s Integrated Financial System FY 2012 Status of Funds reports. We
              judgmentally selected the two largest business units (Information Technology
              organization and SB/SE Division) among the 12 business units participating in the
              ACA implementation in order to maximize our use of available audit resources and
              because we did not intend to project our results. We randomly selected the
              employees reviewed within each business unit.
           B. Obtained an extract of 744 Information Technology organization and 1,047 SB/SE
              Division permanent employees whose salary was charged to the HIRIF during
              FY 2012. From the selected business units, we:
                1. Selected two random samples consisting of 20 Information Technology
                   organization and 20 SB/SE Division employees.
                2. Reviewed monthly time sheets and other supporting documentation and
                   investigated any variances identified.
                3. Compared ACA implementation hours reported with each employee’s manager
                   and obtained documentation supporting any instances where the time reported is
                   based on an allocation.
           C. Evaluated allocated indirect costs charged to the HIRIF during FY 2012 and
              determined whether the expenses were accurately calculated and supported by
              complete and reliable documentation.
           D. Obtained an extract of all Information Technology organization and SB/SE Division
              employees with operating or training travel charged to the HIRIF in FY 2012 and
              determined whether those employees performed work on the ACA implementation.
           E. Analyzed any quality review procedures established by the Chief Financial Officer to
              ensure that ACA administrative expenses are accurately calculated.
IV.        Reviewed the IRS’s reporting of its ACA Funding and Expenditure Status to the HHS
           and other stakeholders as requested.




1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 8
                       Affordable Care Act: Tracking of Health Insurance
                     Reform Implementation Fund Costs Could Be Improved



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies and procedures for
calculating ACA program implementation costs and the reporting of these costs to stakeholders.
We evaluated these controls by interviewing management, assessing IRS policy documents, and
reviewing IRS calculations of selected ACA implementation costs.
Review methodology
This audit focused on selected ACA implementation expenses. Specifically, we reviewed labor,
travel, and indirect costs incurred by the IRS in implementing the ACA. We did not review, in
detail, expenses related to contracted services and equipment except those included in indirect
costs. We further focused our testing on expenditures from FY 2012 HIRIF funding as of
October 5, 2012, the most current expenditure data available at the time we initiated our
fieldwork. Total FY 2012 expenditures from HIRIF funds as of October 5, 2012, attributable to
labor and travel were $90 million. There were no indirect costs identified in FY 2012.




                                                                                         Page 9
                      Affordable Care Act: Tracking of Health Insurance
                    Reform Implementation Fund Costs Could Be Improved



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Jonathan Meyer, Director
Anthony J. Choma, Audit Manager
Angela Garner, Lead Auditor
Mary F. Herberger, Senior Auditor
Rashme Sawhney, Auditor




                                                                                   Page 10
                      Affordable Care Act: Tracking of Health Insurance
                    Reform Implementation Fund Costs Could Be Improved



                                                                          Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Office of the Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer CTO
Commissioner, Small Business/Self-Employed Division SE:S
Director, Affordable Care Act Office, Small Business/Self-Employed Division SE:ACA
Associate Chief Information Officer, Affordable Care Act (PMO) OS:CTO:ACA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Chief Technology Officer OS:CTO
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 11
                           Affordable Care Act: Tracking of Health Insurance
                         Reform Implementation Fund Costs Could Be Improved



                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Potential; 6,947 direct labor hours related to ACA
    implementation activities (see page 3).

Methodology Used to Measure the Reported Benefit:
We found an unreconciled difference of 6,947 hours between total FY 2012 direct labor charged
to the HIRIF and the summary supporting documentation maintained by one of two IRS business
units we sampled. Our calculation was performed as follows:
Direct labor charged to the HIRIF = 66.79 FTEs1
Summary supporting documentation = 63.45 FTEs
FTE Difference (66.79 FTEs - 63.45 FTEs) = 3.34 FTEs
3.34 FTEs X 2,080 hours in FY 2012 = 6,947 hours

Type and Value of Outcome Measure:
   Reliability of Information – Potential; 274 direct labor hours related to ACA implementation
    activities (see page 3).

Methodology Used to Measure the Reported Benefit:
We found that FY 2012 time reports detailing hours spent daily on the ACA implementation
were not maintained for 17 (85 percent) of 20 IRS employees in one of two selected business
units we sampled with direct labor charges to the HIRIF.
For one of the two business units in our sample selection, a total of 1,740 hours related to hours
worked on ACA implementation. However, the summary supporting documentation, including
time reports provided to us, detailed a total of 1,466 hours. The responsible business unit

1
 An FTE is a measure of labor hours in which one FTE is equal to eight hours multiplied by the number of
compensable days in a particular fiscal year.
                                                                                                           Page 12
                        Affordable Care Act: Tracking of Health Insurance
                      Reform Implementation Fund Costs Could Be Improved



informed us that, in general, it maintains time reports for only a limited period, and the time
reports we requested, relating to early FY 2012, were already purged. As a result, we were
unable to verify 274 hours (1,740 hours - 1,466 hours).




                                                                                            Page 13
        Affordable Care Act: Tracking of Health Insurance
      Reform Implementation Fund Costs Could Be Improved



                                                  Appendix V

Management’s Response to the Draft Report




                                                        Page 14
  Affordable Care Act: Tracking of Health Insurance
Reform Implementation Fund Costs Could Be Improved




                                                  Page 15
  Affordable Care Act: Tracking of Health Insurance
Reform Implementation Fund Costs Could Be Improved




                                                  Page 16
  Affordable Care Act: Tracking of Health Insurance
Reform Implementation Fund Costs Could Be Improved




                                                  Page 17
